Audit Report




OIG-12-045
SAFETY AND SOUNDESS: Material Loss Review of Lydian
Private Bank
March 21, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

Causes of Lydian Private Bank’s Failure .............................................................. 2
  High Concentration in Nontraditional Mortgages .............................................. 3
  Dominant Chief Executive Officer/Chairman and Deficient Board Oversight and
     Governance............................................................................................ 4

OTS’s Supervision of Lydian Private Bank ...........................................................            6
  OTS Did Not Take Timely Enforcement Action to Address Lydian’s
     Concentration in Nontraditional Mortgages .................................................               8
  OTS Did Not Take Timely Enforcement Action to Address Lydian’s
     Deficient Board Oversight and Governance ................................................                  9
  OTS’s and OCC’s Use of Prompt Corrective Action .........................................                    11

Concluding Remarks ......................................................................................... 12

Appendices

    Appendix    1:      Objectives, Scope, and Methodology ......................................              13
    Appendix    2:      Background..........................................................................   16
    Appendix    3:      Management Response .........................................................          19
    Appendix    4:      Major Contributors to This Report ...........................................          20
    Appendix    5:      Report Distribution ................................................................   21

Abbreviations

    FDIC                Federal Deposit Insurance Corporation
    MRBA                matter requiring board attention
    OCC                 Office of Comptroller of the Currency
    OIG                 Office of Inspector General
    OTS                 Office of Thrift Supervision
    PCA                 prompt corrective action
    ROE                 report of examination
    TFR                 thrift financial report




                        Material Loss Review of Lydian Private Bank (OIG-12-045)                          Page i
         This Page Intentionally Left Blank




Material Loss Review of Lydian Private Bank (OIG-12-045)   Page ii
                                                                                      Audit
OIG
The Department of the Treasury
                                                                                      Report
Office of Inspector General




                       March 21, 2012

                       John G. Walsh
                       Acting Comptroller of the Currency

                       This report presents the results of our material loss review of
                       the failure of Lydian Private Bank (Lydian), of Palm Beach,
                       Florida, and the former Office of Thrift Supervision’s (OTS)
                       supervision of the institution. OTS regulated Lydian until
                       July 21, 2011, when the Office of the Comptroller of the
                       Currency (OCC) assumed regulatory responsibility for federal
                       savings associations pursuant to P.L. 111-203.

                       OCC closed the thrift and appointed the Federal Deposit
                       Insurance Corporation (FDIC) as receiver on August 19, 2011.
                       Section 38(k) of the Federal Deposit Insurance Act mandated
                       this review because of the magnitude of the thrift’s estimated
                       loss to the Deposit Insurance Fund. 1,2 As of December 31,
                       2011, FDIC estimated that loss at $292.1 million.

                       The objectives of our review were to determine the causes of
                       the thrift’s failure; assess OTS’s supervision of the thrift,
                       including implementation of the prompt corrective action (PCA)
                       provisions of section 38; and make recommendations for
                       preventing any such loss in the future. We also assessed OCC’s
                       implementation of PCA provisions of section 38 from July 21,
                       2011, through the bank’s closure on August 19, 2011. To

1
  Effective July 21, 2010, section 38(k) defines a loss as material if it exceeds $200 million for
calendar years 2010 and 2011, $150 million for calendar years 2012 and 2013, and $50 million for
calendar years 2014 and thereafter (with a provision that the threshold can be raised temporarily to
$75 million if certain conditions are met).
2
  Certain terms that are underlined when first used in this report, are defined in Safety and
Soundness: Material Loss Review Glossary, OIG-11-065 (April 11, 2011). That document is
available on the Treasury Office of Inspector General’s (OIG) website at
http://www.treasury.gov/about/organizational-structure/ig/Pages/by-date-2011.aspx.


                       Material Loss Review of Lydian Private Bank (OIG-12-045)                   Page 1
              accomplish these objectives, we reviewed the supervisory files
              and interviewed former OTS and current OCC officials involved
              in the regulatory enforcement matters. We also interviewed
              personnel at FDIC's Division of Resolutions and Receivership.
              Appendix 1 contains a more detailed description of our
              objectives, scope, and methodology. Appendix 2 contains
              background information on Lydian and OTS’s supervision of the
              institution.

              In brief, our review found that Lydian failed primarily because of
              (1) a high-risk concentration in nontraditional mortgages,
              including option adjustable rate mortgages (ARM) and (2) a
              dominant chief executive officer (CEO) and deficient board of
              directors’ oversight and governance. Regarding supervision,
              OTS did not take timely enforcement action to address Lydian’s
              high concentration in nontraditional mortgages and deficient
              board oversight and governance.

              As of the date of this report, there are multiple open
              investigations by various agencies related to questionable
              activities by the thrift. As these matters have not been
              concluded, we were unable to assess the extent that these
              activities might have contributed to Lydian’s failure or if OTS’s
              supervisory response to the activities was appropriate. We also
              referred certain matters to the Treasury Inspector General’s
              Office of Investigations.

              In light of the fact that OTS functions transferred to other
              federal banking agencies on July 21, 2011, we are not making
              any recommendations as a result of our material loss review of
              Lydian.

              We provided OCC with a draft of this report for its review. In a
              written response, which is included as Appendix 3, OCC did not
              provide specific comments on the report contents.


Causes of Lydian Private Bank’s Failure
              Lydian failed primarily because of its high concentration in
              nontraditional mortgages, including option ARMs. In addition,



              Material Loss Review of Lydian Private Bank (OIG-12-045)        Page 2
                       Lydian had a dominant CEO and its board of directors’ oversight
                       and governance was deficient.

                       High Concentration in Nontraditional Mortgages

                       OTS defined a concentration as a group of similar types of
                       assets that, when aggregated, exceeded 25 percent of the
                       association’s core capital plus allowances for loan and lease
                       losses (ALLL). Prior to 2007, Lydian focused its growth strategy
                       on originating and purchasing high-risk nontraditional mortgages
                       but did not appropriately manage the associated risks. As of
                       December 31, 2005, and March 31, 2007, Lydian’s
                       nontraditional mortgages represented 918 and 874 percent,
                       respectively, of core capital plus ALLL. Of those loans, option
                       ARMs represented 255 and 450 percent, respectively, of core
                       capital plus ALLL.

                       The option ARM loan portfolio predominately consisted of
                       mortgage loans originated by Lydian in 2005 during the peak of
                       the real estate market as well as loans purchased by Lydian in
                       January 2007 that had been originated by Countrywide Home
                       Loans, Inc. 3 The portfolio consisted mainly of loans secured by
                       properties in California and Florida, and contained many stated
                       income and negative amortizing loans.

                       Lydian’s significant concentration in nontraditional mortgages
                       and lack of adequate concentration risk management practices
                       led to asset quality deterioration beginning in 2007. Its
                       adversely classified assets, which were primarily option ARM
                       loans, increased from 4.4 percent to 38.2 percent of core
                       capital plus ALLL from March 31, 2007, to June 30, 2008. As
                       a result, Lydian recorded loan loss provisions of $41 million,
                       $88 million, and $54 million in 2008, 2009, and 2010,
                       respectively. These substantial loan loss provisions caused

3
  The Countrywide loans purchased by Lydian principally consisted of loans originated in 2005 and
2006 that were secured primarily by residential properties in California and Florida and underwritten
with alternative documentation. In early 2008, Lydian determined that the stated income was often
two or three times borrowers' income reported to the Internal Revenue Service. In November 2008,
Lydian sued Countrywide, alleging that certain mortgage loans should have been repurchased due to
underwriting misrepresentations. The matter was settled in May 2009 whereby Countywide agreed
to repurchase $12 million in loans. An additional net settlement of $11 million was reached in
October 2009.


                       Material Loss Review of Lydian Private Bank (OIG-12-045)                   Page 3
continued erosion of capital and ultimately Lydian fell to the
critically undercapitalized PCA capital category in May 2011.

Dominant CEO/Chairman and Deficient Board Oversight and
Governance

The OTS Handbook stated that one reason a bank can become
troubled is the domination of the board by one director or
officer. It also stated that the board of directors is responsible
for (1) establishing and maintaining appropriate committees,
(2) hiring and retaining skilled and experienced executive
officers; and (3) ensuring that board meeting minutes represent
a complete and accurate record.

Lydian’s board of directors (1) allowed the CEO/chairman of the
board to heavily influence the operations of the thrift, (2) did
not maintain appropriate committees, (3) approved the hiring of
inexperienced key personnel, (4) was unable to retain executive
officers; and (5) did not maintain accurate and detailed board
minutes.

According to OTS examiners, Lydian’s CEO/chairman of the
board had a dominating influence over the operations of the
thrift. A board-approved policy granted loan approval authority
to the CEO/chairman in combination with one of two other
senior officers, up to the thrift’s legal lending limit. The policy
did not require the prior approval of the loan committee or the
board. As a result, the CEO approved several large speculative
loans and questionable loan modifications without board
disclosure or approval. In 2009, OTS examiners noted that the
CEO exerted considerable influence on the activities of the thrift
and holding company enterprise through his management
positions and ownership interest in Lydian’s holding company.

In his role as chairman of the board, Lydian’s CEO did not
ensure that the board met its basic responsibilities in overseeing
the affairs of the thrift as evidenced by the lack of appropriate
committees. Lydian’s credit risk management was the
responsibility of the chairman (prior to becoming both chairman
and CEO) and the CEO, who were the only two members of the
credit committee. This committee did not maintain minutes or



Material Loss Review of Lydian Private Bank (OIG-12-045)         Page 4
regularly provide lists of classified assets to the board. In its
2008 report of examination (ROE), OTS examiners criticized the
institution’s asset classification process because it was informal
and consisted primarily of meetings between the CEO and the
thrift’s chief operating officer (COO). OTS examiners did not
consider this an appropriate forum to discuss and approve
classifications. Furthermore, OTS examiners downgraded
approximately $23 million in classified assets in 2008, which
nearly doubled the amount of classified assets identified by the
thrift. At the recommendation of OTS, Lydian established a
formal asset classification committee in April 2009. However,
this committee still did not provide appropriate disclosures and
monitoring reports to the board. It also did not maintain proper
documentation of its problem loans.

Lydian’s board approved the hiring of individuals who lacked the
necessary independence, skills, and experience, and the board
was unable to retain key members of senior management, as
was evident by frequent turnover. In 2008, OTS recommended
Lydian hire a chief credit officer to strengthen the management
infrastructure as it relates to risk management and financial
reporting. In response, the board approved the appointment of
an existing executive vice president as the chief credit officer in
2009. However, this individual lacked independence since he
was actively involved in many of the approvals and
modifications for large commercial loans.

OTS noted that Lydian had frequent turnover in both senior
management and the board of directors. For example, Lydian
had four different chief financial officers (CFO) between 2007
and 2011, and the board had a number of changes in
membership as well as vacancies from 2006 to 2011. In May
2010, the treasurer was promoted to CFO to replace a CFO
who resigned. However, the newly promoted CFO lacked the
depth and expertise necessary for the position, as was
evidenced by continued accounting errors, delays in providing
OTS requested information, and his inability to explain
accounting issues to OTS. Lydian also hired an executive vice
president of operations and technology in 2010 that had no
prior banking experience. In 2011, OTS examiners noted that




Material Loss Review of Lydian Private Bank (OIG-12-045)         Page 5
                      changes in the board and management’s membership negatively
                      affected Lydian’s operations and financial reporting.

                      From 2004 through 2009, Lydian repeatedly did not comply
                      with matters requiring board attention (MRBA) issued by OTS
                      that directed Lydian’s board and management to improve the
                      documentation of board minutes. OTS noted that significant
                      bank developments, detailed financial results, and board
                      approvals were not consistently recorded in the board minutes.

                      In a cease and desist (C&D) order dated September 16, 2010,
                      OTS noted that Lydian had engaged in unsafe or unsound
                      practices including operating without experienced and qualified
                      management and staff and inadequate board supervision. During
                      their 2011 examination, OTS examiners noted that the
                      corporate governance remained a serious supervisory concern
                      as OTS’s review disclosed several instances of noncompliance
                      with the C&D order and the earlier memorandum of
                      understanding (MOU). 4 The board and management failed to
                      comply with enforcement documents, remedy the thrift’s
                      declining financial condition, or correct the thrift’s unsafe or
                      unsound practices, which substantially dissipated Lydian’s
                      assets and earnings and depleted the thrift’s capital.

OTS’s Supervision of Lydian Private Bank
                      OTS’s supervision of Lydian did not prevent a material loss to
                      the Deposit Insurance Fund. OTS did not take timely
                      enforcement action to address Lydian’s (1) unsafe and unsound
                      concentration in nontraditional mortgages or (2) deficient board
                      oversight and governance.

                      Table 1 summarizes the results of OTS’s full-scope safety and
                      soundness and limited-scope examinations of Lydian from 2006
                      until the thrift’s closure. 5 In general, an MRBA, although not an


4
  A memorandum of understanding, an informal enforcement action, is a commitment by a thrift to
OTS in which the thrift agrees to correct a violation of law, regulation, or an unsafe or unsound
practice.
5
  OTS conducted its examinations and performed off-site monitoring of Lydian in accordance with
the timeframes prescribed in the OTS Examination Handbook.


                      Material Loss Review of Lydian Private Bank (OIG-12-045)                  Page 6
              enforcement action, is a stronger supervisory response than a
              corrective action.

  Table 1: Summary of OTS’s Examinations and Enforcement Actions for Lydian
                                               Examination Results
                                                         Number of
Date started/ Assets (in   CAMELS            Number of corrective     Enforcement
completed     (billions)   rating            MRBAs       actions      actions
2/21/2006
5/31/2006
              $1.6           2/222222             4             6        None
Full-scope
examination
4/23/2007
7/16/2007
              $1.8           2/222222             4             6        None
Full-scope
examination
8/4/2008
12/1/2008                                                                MOU
              $1.9           3/333322             7             26
Full-scope                                                               (5/21/2009)
examination
2/2/2009
2/23/2009
Limited-      $2.1           3/333322             0             3        None
scope
examination
                                                                         Troubled
                                                                         Condition Letter
12/14/2009                                                               (7/2/2010)
5/5/2010                                                                 C&D Order
              $2.1           4/344422             5             26
Full-scope                                                               (9/16/2010)
examination                                                              Civil Money
                                                                         Penalty
                                                                         (12/21/2010)
10/25/2010
11/24/2010
Limited-      $1.9           4/344422             0             0        None
scope
examination
4/4/2011
5/27/2011                                                                PCA Directive
              $1.8           5/555554             13            30
Full-scope                                                               (8/18/2011)
examination
   Source: OTS.




              Material Loss Review of Lydian Private Bank (OIG-12-045)                   Page 7
OTS Did Not Take Timely Enforcement Action to Address
Lydian’s Concentration in Nontraditional Mortgages

OTS New Directions 6-14, issued November 2006, stated that
OTS examiners should develop an effective supervisory
response for financial institutions that have material exposure to
specific risk concentrations and promptly initiate appropriate
corrective or supervisory action when necessary. It also stated
that examiners may instruct the association to discontinue
activities that lead to a specific high-risk concentration when
proper oversight and controls are not in place. The Interagency
Guidance on Nontraditional Mortgage Product Risks, issued
October 2006, stated that concentrations that are not
effectively managed will be subject to elevated supervisory
attention and potential examiner criticism to ensure timely
remedial action.

Lydian’s aggressive lending strategy prior to 2007 resulted in a
significant concentration in nontraditional mortgages. As
mentioned above, as of December 31, 2005, the value of
Lydian’s nontraditional mortgages represented 918 percent of
core capital plus ALLL and of those loans, option ARMs
represented 255 percent of core capital plus ALLL. OTS issued
an MRBA in its May 2006 ROE directing that the board
establish limitations in Lydian’s nontraditional mortgage
portfolio. The thrift responded in an August 2006 letter stating
that the board would consider portfolio limitations for
nontraditional mortgages once it believed that it had the
relevant information over a period of time sufficient to enable it
to determine what, if any, limitations were necessary. In
November 2006, OTS accepted this response but again
suggested the board establish reasonable limitations. Lydian
then proceeded to purchase a pool of option ARMs in the
amount of $243 million in January 2007. By March 2007,
Lydian’s nontraditional mortgage portfolio was $1.1 billion and
its option ARMs had increased by 96 percent since
December 2005. In its 2007 ROE, OTS noted but did not object
to the thrift’s 2007 budget projections to increase its option
ARMs by another 40 percent or $215 million, despite repeated
risk management criticisms. Lydian began exiting the mortgage




Material Loss Review of Lydian Private Bank (OIG-12-045)        Page 8
market in June 2007 and the nontraditional mortgage portfolio
began to significantly deteriorate.

OTS issued an MRBA in 2006 instructing the thrift to develop
effective management information systems to monitor and
manage credit risks within Lydian’s nontraditional mortgage
portfolio. OTS issued an MRBA in 2007 and a corrective action
in 2008 instructing Lydian to account for the nontraditional
mortgage risks in its ALLL methodology. Due to these
significant risks, OTS instructed Lydian in a 2009 MRBA to
risk-weight all payment option ARMs at 100 percent for risk-
based capital purposes.

Despite the existing high concentration in nontraditional
products and criticisms of the thrift’s credit and concentration
risk management, OTS did not require Lydian to set limits on its
nontraditional mortgage concentration prior to the thrift
substantially increasing the concentration in 2007. OTS did not
take enforcement action until May 2009, after Lydian had
already ceased its nontraditional mortgage lending. At that time,
OTS entered into an MOU instructing the thrift to develop a
strategy to reduce the concentration in the nontraditional
mortgage portfolio and to adopt prudent internal concentration
limits.

A former OTS assistant regional director told us that OTS could
have established limits on the option ARM loan concentration
and that OTS was too late in understanding the true risks within
that portfolio. A former OTS examiner told us that OTS should
have enforced limits on the option ARM loans.

OTS Did Not Take Timely Enforcement Action to Address
Lydian’s Deficient Board Oversight and Governance

The OTS handbook stated that in reviewing executive officers’
performance, examiners need to determine that sound corporate
governance policies and a strong system of internal controls
exist. It also stated that an institution warranted a 3 CAMELS
composite rating if it exhibited a combination of weaknesses
that range from moderate to severe, and risk management
practices were less than satisfactory. If board performance



Material Loss Review of Lydian Private Bank (OIG-12-045)        Page 9
                       needed improvement or risk management practices were less
                       than satisfactory and problems and significant risks were
                       inadequately identified, measure, monitored, or controlled, the
                       handbook stated an institution’s CAMELS management
                       component warranted a 3 rating. The handbook also provided
                       examples of when OTS would consider taking formal
                       enforcement action, including when (1) the thrift’s controls and
                       policies exhibit significant problems, (2) the board does not take
                       corrective action, and (3) the association does not maintain
                       satisfactory books and records.

                       As early as 2002 and continuing to 2011, OTS repeatedly
                       noted problems with Lydian’s policies, ALLL methodology,
                       board meeting minutes, and thrift financial reports (TFR). 6
                       Additionally, OTS examiners stated they had problems receiving
                       timely access to Lydian’s records during examinations.
                       However, OTS did not downgrade Lydian’s CAMELS
                       management component and the composite rating to 3 until the
                       2008 examination, and did not take formal enforcement action
                       until September 2010 when it issued the C&D order.

                       In addition to the problems identified by examiners discussed
                       above, OTS e-mails we reviewed revealed that OTS received a
                       2008 anonymous letter from a former Lydian employee. The
                       letter alleged that “several executive officers responsible for the
                       financial well being of the bank left because the board chairman
                       was mismanaging the finances with irresponsible desperation.”
                       When we asked what action OTS took in response to the letter,
                       several former OTS employees had vague recollections of the
                       letter but did not recall doing anything to address it.

                       Several former OTS employees stated OTS should have taken
                       stronger enforcement action sooner instead of waiting until May
                       2009 to issue an MOU.




6
  OTS required Lydian to re-file several TFRs from 2002 through 2011 and to restate its 2008 and
2009 audited financial statements due to aggressive and erroneous accounting methods. Lydian’s
external auditors reported a material weakness in Lydian’s internal control over financial reporting in
2009. A former OTS examiner stated that during examinations, Lydian did not always provide
financial information in a timely manner.


                       Material Loss Review of Lydian Private Bank (OIG-12-045)                     Page 10
                     OTS’s and OCC’s Use of Prompt Corrective Action

                     The purpose of PCA is to resolve problems of insured depository
                     institutions with the least possible long-term loss to the Deposit
                     Insurance Fund. PCA requires federal banking agencies to take
                     certain actions when an institution’s capital drops below certain
                     levels. PCA also gives regulators flexibility to supervise
                     institutions based on criteria other than capital levels.

                     Lydian reported that its capital level was undercapitalized on
                     May 2, 2011, with the filing of TFR for the quarter ended
                     March 31, 2011, TFR. In addition, on May 13, 2011, Lydian
                     filed an amended TFR for the quarter ended December 31,
                     2010, 7 also putting it in the PCA undercapitalized category as
                     of that date. On May 20, 2011, OTS notified Lydian in writing
                     of its undercapitalized status, relevant PCA restrictions, and
                     requirement to file a capital restoration plan by June 16, 2011.
                     Lydian reported that its capital level was critically
                     undercapitalized in an amended TFR for the quarter ended
                     March 31, 2011, filed on May 26, 2011. On June 3, 2011,
                     OTS notified Lydian in writing of its critically undercapitalized
                     status and additional mandatory PCA provisions. Lydian
                     submitted a capital restoration plan, which was later rejected by
                     OTS because the plan did not sufficiently develop the steps the
                     thrift would take to become adequately capitalized.

                     Subsequent to the transfer of certain OTS authorities to OCC on
                     July 21, 2011, OCC issued a PCA directive to Lydian on
                     August 18, 2011, based on the determination that the directive
                     was necessary to resolve the institution at the least possible
                     long-term cost to the Deposit Insurance Fund. Because of
                     Lydian’s failure to submit a viable capital restoration plan and
                     the substantial dissipation of Lydian’s assets and earnings, OCC
                     placed Lydian into receivership. We consider OTS and OCC’s
                     use of PCA to be appropriate.




7
 The December 31, 2010, TFR originally showed the bank as well-capitalized. There were two
amendments to this TFR with the second amendment showing the bank to be undercapitalized.


                     Material Loss Review of Lydian Private Bank (OIG-12-045)                Page 11
Concluding Remarks
            Our material loss review revealed two deficiencies in OTS’s
            supervision of Lydian. OTS should have taken more timely
            enforcement action to address (1) an unsafe and unsound
            concentration in nontraditional mortgages, and (2) Lydian’s
            deficient board oversight and governance. Pursuant to
            P.L. 111-203, the functions of OTS transferred to other federal
            banking agencies on July 21, 2011. Accordingly, we are not
            making any recommendations to OCC as a result of our material
            loss review of Lydian.

            It should be noted that we reported on high concentrations and
            a lack of strong supervisory response in a number of our
            material loss reviews of both OTS- and OCC-regulated failed
            financial institutions. To provide more direction on concentration
            limits, OCC updated its Concentrations of Credit handbook in
            December 2011 to emphasize the importance of risk
            management practices, maintaining adequate capital, and to
            encourage financial institutions to revisit existing concentration
            policies. While we believe the guidance was better than what
            had been available to banks and examiners previously, it is too
            soon to tell whether the guidance will be effective at controlling
            risky concentrations going forward.

                                        * * * * *

            We appreciate the courtesies and cooperation provided to our
            staff during the audit. If you wish to discuss the report, you
            may contact me at (202) 927-0384 or Theresa Cameron, Audit
            Manager, at (202) 927-1011. Major contributors to this report
            are listed in appendix 4.



            /s/
            Jeffrey Dye
            Audit Director




            Material Loss Review of Lydian Private Bank (OIG-12-045)       Page 12
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted a material loss review of Lydian Private
                        Bank (Lydian) of Palm Beach, Florida, in response to our
                        mandate under section 38(k) of the Federal Deposit Insurance
                        Act. 8 This section provides that if the Deposit Insurance Fund
                        incurs a material loss with respect to an insured depository
                        institution, the inspector general for the appropriate federal
                        banking agency is to prepare a report to the agency that

                        •   ascertains why the institution’s problems resulted in a
                            material loss to the insurance fund;

                        •   reviews the agency’s supervision of the institution, including
                            its implementation of the prompt corrective action (PCA)
                            provisions of section 38; and

                        •   makes recommendations for preventing any such loss in the
                            future.

                        At the time of Lydian’s failure on August 19, 2011,
                        section 38(k) defined a loss as material if it exceeded $200
                        million during calendar years 2010 and 2011. The law also
                        requires the inspector general to complete the report within
                        6 months after it becomes apparent that a material loss to the
                        Deposit Insurance Fund has been incurred. We initiated this
                        material loss review of Lydian based on the loss estimate by the
                        Federal Deposit Insurance Corporation (FDIC), which was
                        $293.2 million at the time of closing. As of December 31,
                        2011, FDIC estimated that the loss would be $292.1 million.

                        Our objectives were to determine the causes of Lydian’s failure;
                        assess the former Office of Thrift Supervision’s (OTS)
                        supervision of Lydian, including implementation of the PCA
                        provisions of section 38; and make recommendations for
                        preventing such a loss in the future. The OTS regulatory
                        functions for federal savings associations transferred to the
                        Office of the Comptroller of the Currency (OCC) on July 21,
                        2011, prior to Lydian’s closing on August 19, 2011. Due to
                        OCC’s limited supervisory involvement with Lydian, our
                        assessment of its supervision focused on PCA. To accomplish


8
    12 U.S.C. § 1831o(k).


                        Material Loss Review of Lydian Private Bank (OIG-12-045)       Page 13
Appendix 1
Objectives, Scope, and Methodology




our review, we conducted fieldwork at OCC’s headquarters in
Washington, D.C., and it’s Southern District Field Office in
Miami, Florida. We also conducted interviews of former OTS
employees in Atlanta, Georgia, and officials of FDIC’s Division
of Resolutions and Receivership. We conducted our fieldwork
from August through December 2011.

To assess the adequacy of OTS’s supervision of Lydian, we
determined (1) when OTS first identified the thrift’s safety and
soundness problems, (2) the gravity of the problems, and
(3) the supervisory response OTS took to get the thrift to
correct the problems. We also assessed whether OTS (1) might
have discovered problems earlier; (2) identified and reported all
the problems; and (3) issued comprehensive, timely, and
effective enforcement actions that dealt with any unsafe or
unsound activities. In addition, we assessed whether OCC’s
implementation of PCA provisions of section 38 was timely.
Specifically, we performed the following work:

•   We determined that the period covered by our audit would
    be from February 21, 2006, through the thrift’s failure on
    August 19, 2011. This period included five full-scope safety
    and soundness examinations and two limited-scope
    examinations of Lydian.

•   We reviewed OTS’s supervisory files and records for Lydian
    from 2006 through 2011 and OCC’s 2011 supervisory files
    and records for Lydian. We analyzed examination reports,
    supporting workpapers, and related supervisory and
    enforcement correspondence. We performed these analyses
    to gain an understanding of the problems identified, the
    approach and methodology OTS used to assess the thrift’s
    and holding company’s condition, and the action used by
    OTS to compel thrift and holding company management to
    address deficient conditions. We did not conduct an
    independent or separate detailed review of the external
    auditor’s work or associated workpapers other than those
    incidentally available through the supervisory files.

•   We interviewed and discussed various aspects of the
    supervision of the thrift and holding company with former


Material Loss Review of Lydian Private Bank (OIG-12-045)        Page 14
                        Appendix 1
                        Objectives, Scope, and Methodology




                            OTS officials and examiners and OCC officials to obtain their
                            perspectives on the thrift’s and holding company’s condition
                            and the scope of the examinations.

                        •   We selectively reviewed Lydian’s documents that had been
                            taken by FDIC and inventoried by FDIC Division of
                            Resolutions and Receivership personnel. From FDIC’s
                            inventory list, we identified documents for our review that
                            were most likely to shed light on the reasons for the thrift’s
                            failure and OTS’s supervision of the institution.

                        •   We assessed OTS’s and OCC’s actions based on its internal
                            guidance and the requirements of the Federal Deposit
                            Insurance Act. 9

                        We conducted this performance audit in accordance with
                        generally accepted government auditing standards. Those
                        standards require that we plan and perform the audit to obtain
                        sufficient, appropriate evidence to provide a reasonable basis
                        for our findings and conclusions based on our audit objectives.
                        We believe that the evidence obtained provides a reasonable
                        basis for our findings and conclusions based on our audit
                        objectives.




9
    12 U.S.C. § 1811 et seq.


                        Material Loss Review of Lydian Private Bank (OIG-12-045)        Page 15
Appendix 2
Background




Lydian Private Bank History

Lydian Private Bank (Lydian) was a federal savings association
chartered on April 6, 2000. Lydian was originally named
VirtualBank, and began operations as an internet bank with a
significant mortgage banking operation headquartered in Palm
Beach, Florida. The thrift’s primary funding source was Internet
deposits. In June 2002, the thrift changed its name to Lydian
Private Bank and revised its business strategy to include private
banking and wealth management. Lydian Holding Company, a
non-diversified savings and loan holding company, owned 79
percent of the thrift.

In addition to its main office in Palm Beach, Lydian had five
branches located in Palm Beach Gardens, North Palm Beach,
Coral Gables, Sarasota, and Tampa, Florida. Lydian ceased its
mortgage lending operations in mid-2007 and focused on
private banking and wealth management services along with
commercial and consumer lending. In 2007, Lydian began to
incur large losses on its nontraditional mortgage loans that were
primarily secured by property in declining real estate areas
(California and Florida). These losses resulted in asset quality
deterioration which led to capital erosion.

Lydian Holding Company filed an application for funds under the
Capital Purchase Program of the Troubled Asset Relief Program
(TARP) on November 18, 2008, but withdrew the application
on September 14, 2009.

OTS Assessments Paid by Lydian Private Bank

OTS funded its operations in part through semiannual
assessments on savings associations. OTS determined each
institution’s assessment by adding together three components
reflecting the size, condition, and complexity of an institution.
OTS computed the size component by multiplying an
institution’s total assets as reported on the thrift financial report
by the applicable assessment rate. The condition component
was imposed on institutions that had a 3, 4, or 5 CAMELS
composite rating. OTS imposed a complexity component if (1) a
thrift administered more than $1 billion in trust assets; (2) the


Material Loss Review of Lydian Private Bank (OIG-12-045)          Page 16
Appendix 2
Background




outstanding balance of assets fully or partially covered by
recourse obligations or direct credit substitutes exceeded
$1 billion, or (3) the thrift serviced over $1 billion of loans for
others. OTS calculated the complexity component by
multiplying set rates times the amounts by which an association
exceeds each particular threshold. Table 2 shows the amounts
that Lydian paid from 2006 through 2011.

Table 2: Assessments Paid by Lydian to OTS, 2006—2011


   Billing Period              Exam Rating      Amount Paid
  1/1/2006-6/30/2006                 2              $138,634
  7/1/2006-12/31/2006                2               151,165
  1/1/2007-6/30/2007                 2               172,240
  7/1/2007-12/31/2007                2               191,212
  1/1/2008-6/30/2008                 2               194,215
  7/1/2008-12/31/2008                2               190,638
  1/1/2009-6/30/2009                 3               291,282
  7/1/2009-12/31/2009                3               301,476
  1/1/2010-6/30/2010                 3               305,216
 Source: OTS.
  7/1/2010-12/31/2010                4               383,714
  1/1/2011-6/30/2011                 4               377,030
    Source: OTS.


Number of OTS/OCC Staff Hours Spent Examining Lydian

Table 3 shows the number of OTS staff hours spent examining
Lydian from 2006 to 2011. In addition, OCC spent 381 hours
examining Lydian on the last examination, but there were no
assessments paid to OCC by Lydian because OCC was not the
primary regulator at the time of the examination.




Material Loss Review of Lydian Private Bank (OIG-12-045)        Page 17
Appendix 2
Background




Table 3: Number of OTS Hours Spent Examining Lydian, 2006-2011
                              Number of
 Examination                Examination
 Start Date                       Hours
 2/21/2006                             1,141
 4/23/2007                               945
 8/4/2008                              2,204
 2/2/2009                                 92
 12/14/2009                            2,334
 10/25/2010                              384
 4/4/2011                              2,941
     Source: OTS.




Material Loss Review of Lydian Private Bank (OIG-12-045)         Page 18
Appendix 3
Management Response




Material Loss Review of Lydian Private Bank (OIG-12-045)   Page 19
Appendix 4
Major Contributors to This Report




Theresa Cameron, Audit Manager
Dana Duvall, Auditor-in-Charge
Patrick Gallagher, Auditor
Jen Ksanznak, Auditor
Tim Cargill, Referencer




Material Loss Review of Lydian Private Bank (OIG-12-045)   Page 20
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary of the Treasury
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

U.S. Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

U.S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of Lydian Private Bank (OIG-12-045)       Page 21
